FY 2013 Evaluation of the
Smithsonian Institution’s
Information Security
Program




Office of the Inspector General
Report Number A-13-10
July 9, 2014
            Smithsonian Institution
           Office of the Inspector General


           In Brief                  FY 2013 Evaluation of the Smithsonian Institution’s
                                     Information Security Program
                                     Report Number A-13-10, July 9, 2014


Why We Did This Audit               What We Found

The Federal Information             During our fiscal year 2013 audit of the Smithsonian’s
Security Management Act of          information security program, we found that OCIO management
2002 (FISMA) directs the            could strengthen configuration management by timely
Office of the Inspector General     implementing security patches, improving workstation
to annually evaluate the
                                    configuration settings, and deleting obsolete software. In
information security program
                                    addition, management needs to:
of the entity. Although not
subject to FISMA, the
Smithsonian has adopted                 •	 Strengthen procedures for remote access,
FISMA through its policy                •	 Improve system backup processes, and
because it is consistent with           •	 Ensure that staff are appropriately trained in the areas of
and advances the                           incident reporting and security.
Smithsonian’s mission and
strategic goals.                    Further, we found that Smithsonian Astrophysical Observatory
                                    (SAO) management did not fully enforce configuration and
The objective of this audit was
                                    account management procedures. We also found that
to evaluate the effectiveness
                                    management needed to strengthen its’ physical access
of the information security
program and practices at the        monitoring capabilities and report on continuous monitoring
Smithsonian Institution             activities. Lastly, various sections of SAO’s system security plan
(Smithsonian). We did this by       for one system was not current, accurate, or complete.
assessing the Smithsonian’s
compliance with (1) its             Finally, we found that the National Museum of Natural History
security policies, standards,       (NMNH) management needed to improve account modification
and guidelines, and (2) the         procedures for its research collection information system.
standards and guidelines
promulgated by the National
                                    What We Recommended
Institute of Standards and
Technology (NIST).
                                    We made eight recommendations to improve OCIO’s information
                                    security program. We made five recommendations to SAO and
Background
                                    two recommendations to NMNH to improve their information
FISMA requires organizations        security practices. These recommendations address
to adopt a risk-based, life cycle   improvements needed in seven information security control
approach to addressing              groups: configuration management, access control, physical and
information security that           environmental protection, contingency planning, incident
includes annual security            response, awareness and training, planning, and security
program reviews, independent        assessment and authorization.
evaluations by the Office of the
Inspector General, and reports
                                    Management concurred with our findings and recommendations
for the Department of
                                    and has proposed corrective actions.
Homeland Security and
Congress.
                                    For additional information, contact the Office of the Inspector General at
                                    (202) 633-7050 or visit http://www.si.edu/oig.
0             Smithsonian Institution 	

             Office of the Inspector General
                                                                                       Memo




    Date     July 9, 2014

      To 	   Deron Burba, Chief Information Officer 

             Danee Gaines Adams, Privacy Officer 

             Jeanne O'Toole, Director of Office of Protection Services 

             Juliette Sheppard, Director of Information Technology Security 


     Cc:     Albert Horvath, Under Secretary for Finance and Administration and Chief
              Financial Officer
             Porter N. Wilkinson, Chief of Staff, Board of Regents
             Patricia Bartlett, Chief of Staff, Office of the Secretary
             Judith Leonard, General Counsel
             Cindy Zarate, Executive Officer, Office of the Under Secretary for Finance
               and Administration/Chief Financial Officer
             Stone Kelly, Program and Budget Analyst, Office of Planning,
               Management and Budget

    From     Epin Christensen, Acting Inspector General    ~ltf4':t   ----·
Subject 	    FY 2013 Evaluation of the Smithsonian Institution's Information Security
             Program, Report Number A-13-10

             Attached please find the final report on our independent evaluation of the
             Smithsonian's information security program for fiscal year 2013.

             We made fifteen recommendations to strengthen the Smithsonian's
             information security program. Our recommendations addressed the
             following control groups: configuration management, access control,
             physical and environmental protection, contingency planning, incident
             response, awareness and training, planning, and security assessment and
             authorization.

             Management concurred with our findings and recommendations and has
             proposed corrective actions.

             While outside of the scope of this audit, we note that management has filled
             two key positions, Computer Security Manager and Privacy Officer. We
             believe that filling these positions is a step to strengthening the information
             security program at the Smithsonian.

             We appreciate the courtesy and cooperation of all Smithsonian staff during
             this review. Please call me or Joan Mockeridge, Acting Assistant Inspector
             General for Audits, at 202.633. 7050 if you have any questions.
             MRC 524 

             POBox37012 

             Washington DC 20013-0712 

             202.633.7050 Telephone 

             202.633-7079 Fax 

SMITHSONIAN INSTITUTION                      OFFICE OF THE INSPECTOR GENERAL




                            TABLE OF CONTENTS



INTRODUCTION          
                                               1


BACKGROUND                                                            2


RESULTS OF AUDIT                                                      3        


     Configuration Management                                         3


     Access Control                                                   7


     Physical and Environmental Protection                            10


     Contingency Planning                                             11


     Incident Response                                                11


     Awareness and Training                                           12


     Planning                                                         14


     Security Assessment and Authorization                            15



OBJECTIVES, SCOPE, AND METHODOLOGY                              Appendix A

PRIOR RECOMMENDATIONS FOR WHICH CORRECTIVE ACTIONS
 ARE NOT YET COMPLETE                                           Appendix B

MANAGEMENT RESPONSE                                             Appendix C

MAJOR CONTRIBUTORS TO THIS REPORT                               Appendix D
SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



                                INTRODUCTION 


The goal of information security is to enable an organization to embrace
technological innovation while protecting the organization’s information and related
systems. The objective of this audit was to evaluate the effectiveness of the
information security program and practices at the Smithsonian Institution
(Smithsonian). We did this by assessing the Smithsonian’s compliance with (1) its
security policies, standards, and guidelines, and (2) the standards and guidelines
promulgated by the National Institute of Standards and Technology (NIST).

This report presents the results of our fiscal year 2013 audit of the information
security program implemented by the Smithsonian, based largely on the work of
Clifton Larson Allen LLP (CLA), an independent audit, advisory, and public
accounting firm.

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the
Federal Information Security Management Act (FISMA) of 2002, was enacted to
strengthen the security controls of federal government information systems.
Although the Smithsonian is not subject to the E-Government Act of 2002, the
Smithsonian has adopted FISMA through its policy because it is consistent with and
advances the Smithsonian’s mission and strategic goals.

FISMA requires executive agencies to adopt NIST standards and guidelines as
federal information security compliance criteria, which form the basis of many
Smithsonian’s information security policies and procedures. Furthermore, FISMA
requires that the Office of the Inspector General (OIG) perform an annual review of
the organization’s information security program. FISMA also requires organizations
to adopt a risk-based, life-cycle approach to addressing information security that
includes annual security program reviews, independent evaluations by the OIG, and
reports for the Department of Homeland Security and Congress.

Appendix A contains a detailed outline of our objective, scope, and methodology,
and Appendix B contains an update on prior recommendations that have not been
fully implemented.

Management concurred with our findings and recommendations and has planned
corrective actions to address the recommendations. Refer to Appendix C for
management’s complete response.




                                         1

SMITHSONIAN INSTITUTION 	                          OFFICE OF THE INSPECTOR GENERAL



                                  BACKGROUND


This 2013 OIG report of the Smithsonian’s information security program included
reviews of the following four major systems:

Smithsonian’s General Support System (SINet) – SINet is the computing
infrastructure and core services used by Smithsonian employees and volunteers to
perform their daily work. The services include internet, phone, email, remote
access, content filtering, file storage, and many others that are integral to running
an organization the size of the Smithsonian.

The research at the Smithsonian Astrophysical Observatory (SAO) focuses on
scientific themes such as black holes, dark matter and energy, planets, extreme
astrophysics, and the stars. This evaluation included the review of two SAO systems
used by the staff of the Harvard-Smithsonian Center for Astrophysics and Scientific
Research and their collaborators:

    •	 Scientific Computing Infrastructure (SCI) System – The SCI system
       supports the scientific research mission of SAO and is used to collect,
       process, store, analyze, and disseminate astrophysical data as well as
       provide the computing infrastructure to perform theoretical modeling
       calculations. In addition, SCI consists of all components required to
       implement scientific computing at SAO including: network and
       telecommunications infrastructure, servers and storage arrays, scientific
       workstations and desktops, web servers, and supporting databases.

    •	 High Energy Astrophysics (HEA) System – The HEA system supports
       scientific data reduction/computation, centralized authentication, print,
       email, data storage, web sites, and database engines. The HEA system also
       supports the servers that process the telemetry streams from the Chandra
       telescope operations control center.

National Museum of Natural History (NMNH) - Research Collection
Information System (RCIS) – The RCIS system supports the management of
over 127 million objects and specimens in diverse fields such as botany,
paleobiology, entomology, zoology, mineral sciences, and anthropology.
Smithsonian staff, researchers, and staff from the U.S. Geological Survey, and the
U.S. Departments of Agriculture, Commerce, and Defense rely on this system.




                                          2

SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL



Smithsonian management identified the SINet, SCI, and HEA systems as moderate
impact systems based on Federal Information Processing Standard (FIPS) 199,
Standards for Security Categorization of Federal Information and Information
Systems. FIPS 199 defines system impact as moderate if the loss of confidentiality,
integrity, or availability could be expected to have a serious adverse effect on
organizational operations, organizational assets, or individuals. In addition,
management identified RCIS as a low impact system, which FIPS 199 defines as
having a limited adverse effect on organizational operations, organizational assets,
or individuals. The impact level of the system determines which controls
management should implement for the particular system.

                                 RESULTS OF AUDIT

This report presents our findings and recommendations for the Office of the Chief
Information Officer’s (OCIO) information security program and for each major
system we reviewed.

                          I. Configuration Management

Configuration management is an important process for establishing and maintaining
secure information system configurations, and provides support for managing
security risks in information systems.

OCIO Needs to Improve Configuration Management Practices

We conducted a vulnerability assessment of the SINet infrastructure. We scanned
189 servers, 84 workstations running Windows XP, and 98 workstations running
Windows 7, to determine if security patches had been implemented timely. We
used the Common Vulnerability Scoring System (CVSS)1 to determine the risk level
of the vulnerabilities. These scans also helped us to verify whether the workstation
settings were configured according to the Smithsonian’s approved configuration
baseline. In addition, we reviewed a sample of router and switch configurations. We
identified three areas where Smithsonian could strengthen configuration
management by: (1) timely implementing security patches, (2) improving
workstation configuration settings, and (3) deleting obsolete software.




1
 A CVSS score is generated using a combination of factors, such as how complex of an
attack would be needed to exploit the vulnerability, whether additional information would be
needed to exploit the vulnerability, and proximity of the attacker to the target host.

                                             3

SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



Security Patches

We determined that some security patches were not applied in a timely manner and
management did not maintain compliance waivers to document the business
justification for not installing the patch. Some unpatched critical and high-risk
vulnerabilities were more than 12 months old. The five critical and most of the
high-risk vulnerabilities on the servers were in older versions of software. This was
also the case with the workstation vulnerabilities.

Smithsonian Technical Notes, IT-960-TN02, Patch and Update Management of
Desktop Computers, and IT-960-TN33, Microsoft Server Patching, provide
procedures for evaluating and implementing patches and service packs for Microsoft
server and workstation operating systems. For desktops, the process for installing
critical patches should begin the day that they are released, and all other patches
are generally installed the following month after they are released. For servers
running Microsoft operating systems, all patching must occur within 5 business days
of the release. These technical notes also assign responsibility for enforcing
compliance and maintaining a record of all compliance waivers to the Information
Technology (IT) Security Staff.

If critical patches are not applied in a timely manner, the Smithsonian is at an
increased risk of attackers exploiting known vulnerabilities in its systems.

Workstation Configuration Settings

We found discrepancies between the configuration applied to the Microsoft Windows
workstations and the United States Government Configuration Baseline (USGCB)
settings. Our compliance testing tools reported that approximately 10 percent of
the 263 USGCB settings were not implemented.

The USGCB settings are promulgated by NIST and are the result of a Federal
government-wide initiative to improve and maintain effective configuration settings,
focusing primarily on security. NIST recommends that organizations make risk-
based decisions as they customize the baseline to support functional requirements
in their operational environments and document any changes to the USGCB
settings.

The Smithsonian Technical Standards and Guidelines, IT-930-02, Security Controls
Manual identifies the USGCB settings as the baseline for Microsoft Windows
workstations. However, there may be cases where employees, such as scientists
and researchers, may need to use a non-compliant configuration setting to run



                                          4

SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL



specialized software or equipment. Smithsonian Technical Note IT-960-TN31,
Security Configuration Management of Baselines allows the OCIO Baseline Manager
to request deviations from the baseline configuration if they adequately document
the deviation and get approval from the Change Control Board. Although
management prepared a report contrasting the differences and accepting the risk
between the USGCB settings and the existing configuration settings, they did not
identify specific causes or reasons for the deviations.

If management does not document the potential risk and the business reasons for
not implementing USGCB configuration settings, they cannot be fully aware of their
operational risks.

Obsolete Software

We determined that some network equipment had software versions that were no
longer supported by the manufacturer. For example, some switches and routers
were running iOS version 12.3, which the manufacturer stopped supporting on
March 15, 2012. Many of the server and workstation vulnerabilities we reported
above were due to software that was no longer supported by the manufacturer. We
also noted that at the time of our audit, the Smithsonian had several hundred
workstations running Windows XP, which Microsoft stopped supporting in April
2014.

Because of the risk of continuing to use Windows XP after support ended, OCIO
assigned responsibility for replacing workstations running Windows XP to the
Periodic Desktop Hardware Replacement Program. Most of those workstations
were due to be replaced before Microsoft ended support for Windows XP.
Management did not have a similar plan for the routers and switches with obsolete
software.

According to NIST special publication 800-40, revision 3, Guide to Enterprise Patch
Management Technologies, as vendors stop issuing patches to address new security
vulnerabilities, the unsupported software becomes less secure and more vulnerable
to intrusions than the current versions of the software.

It is necessary to upgrade obsolete products to versions that have ongoing support
for patching newly discovered vulnerabilities.




                                        5

SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



Recommendations

To strengthen configuration management, we recommend that the Chief
Information Officer:

   1. Ensure that IT security staff enforce compliance with patching requirements
      and, when appropriate, document compliance waivers.

   2. Improve the documentation of USGCB setting deviations to include 

      consideration of risk and the reason for each deviation. 


   3. Upgrade router and switch software versions that are no longer supported
      by the manufacturer.

We provided the detailed scanning results to management to assist them in
addressing these recommendations.

SAO Needs to Improve Configuration Change Control Procedures

SAO management did not consistently retain change and configuration
documentation. In addition, SAO did not consistently request approval from the
Change Control Board for configuration changes for the SCI and HEA systems.

SAO IT staff did not consistently follow configuration management procedures when
performing necessary system updates. For example, staff did not provide evidence
of change requests, approvals, specifications, or test results for any of the six SCI
system changes we sampled.

In addition, for a sample of six HEA system changes, staff did not provide evidence
of approval for two of them. For the other four, staff did not provide evidence of
change requests, approvals, specifications, or test results.

The Smithsonian Technical Standards and Guidelines, IT-930-02, Security Controls
Manual, Section 3.5.5, Configuration Change Control (CM-3), states that for
moderate impact systems, defined as having a serious adverse effect on
organizational operations, organizational assets, or individuals if there were to be a
loss of confidentiality, integrity, or availability, the IT System Manager or Major
System Sponsor must document and control major changes to the information
system.




                                          6

SMITHSONIAN INSTITUTION 	                         OFFICE OF THE INSPECTOR GENERAL



According to Smithsonian Technical Note IT-960-TN01, Change Management, the
change management process consists of:

   •	 Creating a change ticket;
   •	 Approving the change ticket;
   •	 Notifying customers and IT support staffs of a change when 

      appropriate; and

   •	 Closing the change ticket following implementation.

Also, NIST SP 800-53 Rev. 3 recommends that the organization test,
validate, and document configuration management changes.

In the event SAO management does not document, approve, or test
configuration changes, those changes could have consequences that
adversely affect the system’s environment, such as the introduction of new
security vulnerabilities or incompatibilities with other system components.

Recommendation

We recommend that the SAO’s Computation Facility Department Manager:

   4. Enforce configuration management procedures for the SCI and HEA 

      systems to include tracking changes, approvals, testing, and 

      implementation in accordance with Smithsonian policy.



                               II. Access Control

Access controls limit or detect access to computer resources such as data,
programs, equipment, and facilities. These controls help to protect these resources
against unauthorized or accidental modification, loss, and disclosure.

OCIO Needs to Strengthen Remote Access Procedures

Management has developed policies for authorizing connections. However, we
found that the Smithsonian has not established policies or procedures for detecting
and removing unauthorized remote connections. For example, unauthorized
connections may include (1) wireless connections to a second network while
connected to the Smithsonian network, or (2) an alternative internet service
installed by a user to bypass the Smithsonian’s firewall or remote access controls.




                                         7

SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL



NIST Special Publication 800-53, revision 3, Recommended Security Controls for
Federal Information Systems and Organizations, states that an organization should
monitor for unauthorized remote connections to the information system, and take
appropriate action if an unauthorized connection is discovered.

An unauthorized connection could permit an attacker to circumvent the
Smithsonian’s access controls and expose the Smithsonian’s systems to
unauthorized access, data manipulation, and system unavailability.

Recommendation

To ensure that unauthorized remote access is monitored, we recommend that the
Chief Information Officer:

   5. Develop, document, and implement policies and procedures for detecting
      and removing unauthorized connections.

SAO Needs to Improve Account Management Procedures for Inactive HEA
Accounts

SAO management did not consistently disable or terminate inactive accounts for the
HEA system.

For the HEA system, we tested all 416 application accounts and noted that 4 of
them were not disabled after 90 days of inactivity or when employment was
terminated. These four accounts remained active at the time management
generated the accounts report. Three accounts were disabled upon auditor inquiry,
and one was already locked. Management determined that the locked account
belonged to a separated employee and became locked due to a bad password.
Therefore, the account could not be accessed.

The Smithsonian Technical Standards and Guidelines, IT-930-02, Security Controls
Manual, version 3.8, states that system administrators are responsible for
reviewing accounts once every 30 days to identify accounts that have been inactive
for 90 days. System administrators should disable accounts that have been inactive
for 90 days. The system administrator must take appropriate action to change or
delete the accounts of transferred or terminated users and notify that user’s unit
manager that the account has been disabled and will be deleted after another 90
days unless the manager requests that the account be re-enabled.




                                        8

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



In these cases, SAO management did not follow Smithsonian policy for de-
activating inactive accounts.

By not disabling inactive accounts or accounts from separated employees, SAO
could be subject to unauthorized access, which could lead to data loss, data
manipulation, or system unavailability.

Recommendation

We recommend that SAO’s Computation Facility Department Manager:

   6. Ensure that HEA accounts are reviewed and disabled after 90 days of 

      inactivity or upon personnel/affiliate’s departure.


NMNH Needs to Improve Account Modification Procedures

We selected a sample of eight RCIS user accounts. We identified one account that
was granted a group permission without approval documented on an Account
Modification form. In addition, we identified one user account that belonged to an
employee who had transferred positions and no longer required system access.

Smithsonian Technical Standards and Guidelines, IT-930-02, Security Controls
Manual, version 3.8, states that system administrators are required to review
accounts on a monthly basis to identify any transfers or terminations and take
appropriate action to change or delete the user’s account.

In addition, all changes to RCIS user accounts should be recorded using the
Account Modification form. This form is used to document when a user changes
permission groups, when an appointment end date is extended, or when an account
needs to be deleted.

The addition of a group permission to an RCIS user occurred because NMNH did not
document bulk changes to user permissions. For the user who transferred positions,
the user’s account remained active because the appropriate staff did not review and
disable his or her account when access was no longer necessary.

By management not enforcing the use of Account Modification forms, there was an
increased risk that users could obtain inappropriate permissions. Inappropriate
access may have increased the risk of data loss, data manipulation, and system
unavailability.




                                         9

SMITHSONIAN INSTITUTION 	                         OFFICE OF THE INSPECTOR GENERAL



Recommendations

We recommend that NMNH’s Branch Chief for Informatics:

   7.	 Ensure changes to the RCIS user accounts, including modifications of

       group permissions, are appropriately documented in an Account 

       Modification form. 


   8.	 Ensure that RCIS accounts are reviewed and disabled when they are no
       longer necessary when employees transfer positions.

                III. Physical and Environmental Protection

Physical protection (1) limits physical access to information systems, equipment,
and the operating environments to authorized individuals only; and (2) protects the
facility and support infrastructure housing information systems.

SAO SCI Management Needs to Improve Physical Access Monitoring
Capability in the Computer Room

We observed the physical access monitoring capabilities of the SAO SCI computer
room, and found that management did not ensure all of the entrances were
adequately captured by video cameras. Specifically, we found that the computer
room had video surveillance of the front entrance, but there was no camera
coverage of the rear and side doors.

NIST Special Publication 800-53, revision 3, Recommended Security Controls for
Federal Information Systems and Organizations, states that an organization should
monitor physical access to the information system to detect and respond to physical
security incidents. Physical access controls require that an organization monitor
real-time physical intrusion alarms and surveillance equipment.

Lacking the capability to physically monitor all doors may provide an opportunity for
individuals to gain unauthorized access to critical hardware and hinder the
investigation of and response to physical security incidents.

Recommendation

We recommend that SAO’s Computation Facility Department Manager:

   9.	 Ensure video surveillance coverage of all entrances to the SAO SCI 

       computer room. 



                                         10

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



During the course of our audit, management installed another video camera to
enable the monitoring of all physical access. Therefore, we have closed this
recommendation as of the date of this report.


                           IV. Contingency Planning

Contingency planning establishes, maintains, and effectively implements plans for
emergency response, backup operations, and post-disaster recovery. These plans
ensure the continuity of operations in emergency situations.

OCIO Needs to Improve Information System Backups

We examined backup processes for the 4 systems we reviewed. However,
management did not provide evidence to indicate that backups were performed or
that restoration tests were conducted for SINet.

By not adequately ensuring the reliability and integrity of backed-up information,
there is a risk that in the event of a disaster, critical information may not be
successfully restored.

The Smithsonian Technical Standards and Guidelines, IT-930-02, Security Controls
Manual, version 3.8, states that all systems must create backups of user-level and
system-level information contained in the information system on at least a daily
basis. In addition, all systems must employ mechanisms with supporting
procedures to allow the information system to be recovered and reconstituted to
the system’s original state after a disruption or failure.

Recommendations

We recommend that the Chief Information Officer:

   10. Implement corrective action to restore SINet backup processes and 

       capabilities. 


   11. Periodically perform restoration tests using backup media.


                             V. Incident Response

Incident response includes adequate preparation, detection, analysis, containment,
recovery, and user response activities. Incidents must be tracked, documented, and
reported to appropriate organizational officials and/or authorities.



                                         11

SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



OCIO Needs to Ensure That Staff are Appropriately Trained on Reporting
Incidents to US-CERT

We reviewed ten incidents that the Smithsonian was required to report to the
United States Computer Emergency Readiness Team (US-CERT). Management did
not provide evidence that one of the sampled incidents was reported to US-CERT.

The Smithsonian’s Technical Standards and Guidelines, IT-930-TN30, Incident
Response Plan, version 1.3, assigned responsibility to the OCIO Director for
Computer Security or a designated Security Operations Center representative for
collecting and reporting data to US-CERT.

We determined that for the one incident not reported, the staff was not properly
trained on reporting incidents to the US-CERT as well as what documentation
should be retained.

By not reporting all appropriate security incidents, the Smithsonian’s and the US-
CERT’s ability to detect, identify, and respond to suspected or actual breaches of
the Smithsonian’s computer applications, systems, or network was less effective.

Recommendation

We recommend that the Chief Information Officer:

   12. Ensure personnel responsible for reporting incidents to US-CERT have
       adequate guidance so that all incidents are reported timely.

                          VI. Awareness and Training

Organizations must ensure that managers and users are made aware of the
security risks associated with their activities and of the applicable laws, Executive
Orders, directives, policies, standards, instructions, regulations, or procedures
related to the security of the organization.

Smithsonian Needs to Ensure that All Personnel Receive Appropriate
Security Training

All Smithsonian employees and volunteers with a Smithsonian network account
must take the Smithsonian’s Computer Security Awareness Training (CSAT). CSAT
trains personnel on matters of information systems security, privacy, and physical
security, such as granting access to visitors.



                                          12

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



In addition, the Smithsonian offers security and privacy awareness training to all
employees, including volunteers, when they are credentialed. The employees and
volunteers must indicate with their signature that they have received the security
and privacy awareness training. However, credentialed volunteers that do not have
network accounts do not receive annual security and privacy awareness training
because they are only credentialed once every three years.

We reviewed the CSAT records of 26 employees and volunteers who began work
during fiscal year 2013. We found that six volunteers had not taken the
Smithsonian’s CSAT because their job duties did not require network accounts.

The Office of Management and Budget Memorandum (M-12-20) FY 2012 Reporting
Instructions for the Federal Information Security Management Act and Agency
Privacy Management clarifies the intention of FISMA by requiring that all employees
receive annual security and privacy awareness training even if they do not access
electronic information systems.

The Smithsonian had not yet ensured that credentialed volunteers without network
accounts receive annual security training.

Smithsonian personnel without network accounts may not get adequate security
training on Smithsonian physical security matters, privacy, and other non-IT issues.

For example, they may not know the policies and procedures for:

   •   Addressing visitors without Smithsonian badges at restricted areas,
   •   Handling personally identifiable information, or
   •   Using personal social media accounts.

Recommendation

We recommend that the Chief Information Officer in coordination with the Office
of Protective Services and the Privacy Officer:

   13. Provide guidance to employee sponsors of volunteers requiring them to
       update their volunteers’ security awareness training annually.




                                         13

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



                                  VII. Planning

The system security plan provides an overview of the security requirements of a
system and describes the controls in place or planned for meeting those
requirements. The system security plan also identifies responsibilities and
expected behavior of all individuals who access the system.

Management Needs to Update the SCI System Security Plan

SAO management did not have an updated SCI System Security Plan (SSP). We
reviewed the SSP and determined that it was not current, accurate, or complete for
the following sections:

   •   Firewall Policies
   •   Modems and Other SINet Remote Access Methods
   •   Network Router/Switch Installations and Configurations
   •   Identification and Authentication of Organizational Users
   •   Device Identification and Authentication
   •   Baseline Configuration
   •   Configuration Management Plan
   •   Information System Backup
   •   Identification and Authentication of Non-Organizational Users
   •   Monitoring Physical Access

According to NIST Special Publication 800-53, revision 3, Recommended Security
Controls for Federal Information Systems and Organizations, an organization
should update the SSP to address changes to the information system/environment
of operation or problems identified during plan implementation or security control
assessments.

SAO management did not update the SSP template for the SCI environment. By not
ensuring that the SSP was current, there was a risk that security controls could be
incomplete or missing. In addition, staff who rely on the SSP for risk assessment or
other purposes may make erroneous decisions based on the information in the
plan.

Recommendation

We recommend that SAO’s Computation Facility Department Manager:

   14. Perform a review of SCI’s SSP to ensure that all security control sections
       are current, accurate, and complete.



                                         14

SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



During the course of our audit, we verified that SAO management updated their SCI
SSP to address the areas that were not current, accurate, or complete. Therefore,
we have closed this recommendation as of the date of this report.

               VIII. Security Assessment and Authorization

Organizations must periodically assess the security controls in organizational
information systems to determine if the controls are effective in their application.

SAO HEA Staff Need to Report on Continuous Monitoring Activities

We reviewed OCIO’s monitoring logs and noted that HEA staff had not submitted
the required quarterly monitoring reports. The Smithsonian Technical Standards
and Guidelines IT-930-02, Security Controls Manual, version 3.8, specifies quarterly
reports and reviews that managers of major systems are required to perform and
submit to the OCIO security program.

According to management, HEA staff had not consistently submitted the required
reports due to limited program and system resources. HEA staff may not detect
system flaws, security vulnerabilities, or system exploitations if they do not perform
monitoring activities. If HEA staff do not provide evidence of monitoring activities to
OCIO, management will not have the information it requires to determine if the
system is being adequately or effectively monitored.

Recommendation

We recommend that SAO’s Computation Facility Department Manager:

   15. Ensure that SAO HEA staff provide quarterly monitoring reports to OCIO.

During the course of our audit, SAO management began submitting quarterly
monitoring reports and audit log reviews to OCIO. Therefore, we have closed
this recommendation as of the date of this report.




                                          15

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL



                                                                      APPENDIX A
OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the effectiveness of the Smithsonian’s
information security program and practices. We did this by assessing the
Smithsonian’s compliance with (1) its security policies, standards, and guidelines,
and (2) the standards and guidelines promulgated by the National Institute of
Standards and Technology.

This audit was prepared based on information available as of September 30, 2013.
However, we did review data subsequent to September 30, 2013, to close
recommendations as of the date of this report.

Clifton Larson Allen audited the Smithsonian’s information security program on
behalf of the OIG. Their work covered nine of the eleven major control areas in the
scope of the audit, with the remaining two performed by OIG auditors.

We provided oversight and review of CLA’s work and determined that it was
conducted in accordance with Government Auditing Standards, December 2011
Revision, promulgated by the Comptroller General of the United States. Those
standards require that the work is planned and performed to obtain sufficient,
appropriate evidence that provides a reasonable basis for the findings and
conclusions based on the audit objective. We believe that the evidence CLA
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

CLA developed a three-year review rotation plan, in consultation with the OIG, to
review the Smithsonian’s major systems. CLA reviewed the following four major
systems in FY 2013:

    1. The Smithsonian’s General Support System
    2. Smithsonian Astrophysical Observatory - Scientific Computing Infrastructure
       System
    3. Smithsonian Astrophysical Observatory - High Energy Astrophysics System
    4. National Museum of Natural History - Research Collection Information
       System

Our methodology included performing security reviews of the Smithsonian’s
information technology infrastructure and reviewing the Smithsonian’s Plans of
Action and Milestones. We performed procedures to test: (a) the implementation of
a Smithsonian-wide security program; and (b) operational and technical controls


                                         A-1
SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



specific to each application such as service continuity, logical access, and change
management controls. We also interviewed the Office of the Chief Information
Officer staff and major system owners and sponsors.

Generally, all tests were performed to assess the Smithsonian’s technical,
operational, and management controls over its information security program. For
some of the tests performed, we selected samples. Because the samples we
selected were not statistical, we cannot project the results of our findings related to
these areas across the population.

In addition, we evaluated management’s actions to address recommendations from
previous FISMA evaluation reports. The results of this evaluation are in Appendix B.

We conducted this performance audit in Washington, DC; Herndon, VA; as well as
Boston, MA from October 2013 through March 2014, in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence we obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                         A-2
SMITHSONIAN INSTITUTION                                  OFFICE OF THE INSPECTOR GENERAL



                                                                               APPENDIX B

Prior Recommendations For Which Corrective Actions Are Not Yet Complete

                                                                                    Current
    Report                             Recommendation
                                                                                    Status
FY 2010             Update SD 920 and other related documents to provide           Target date
Evaluation of the   clear criteria for designating systems for inclusion in the        for
Smithsonian         Institution’s FISMA inventory.                                 completion
Institution                                                                        8/30/2014
Information         Implement controls to ensure that all SI-owned                 Target date
Security Program    laptops/mobile devices that may be used to store                   for
                    sensitive information are secured with an appropriate          completion
                    encryption technology.
                                                                                   6/30/2014
Management          Direct Unit IT staff to determine which laptop computers
Advisory            in their inventory may be used to store sensitive data
Regarding           and, with assistance from OCIO, configure those
Portable            computers with whole drive encryption.
Computer            Direct Unit IT staff to identify all laptop computers that     Target date
Encryption          will not be configured with encryption and clearly                 for
                    indicate to users with a prominent label that those
                                                                                   completion
                    computers must not be used to store sensitive
                    information.                                                   6/30/2014
                    Revise IT-930-TN28 to assign responsibility to staff with
                    the knowledge and skills to ensure laptop computers are
                    configured with appropriate encryption technology.

FY 2012             Work with system managers to more quickly test
Evaluation of the   security patches and updates and remediate
Smithsonian         all critical and high‐risk vulnerabilities identified in the
                    vulnerability assessment that OIG provided to
Institution
                    management.
Information
                    Monitor Smithsonian workstations for the presence of
Security Program    unapproved software and timely                                 Target date
                    maintenance of approved software and enforce the                   for
                    existing policy requiring units to maintain products that
                                                                                   completion
                    are approved.
                    Implement all US Government Configuration Baseline             11/19/2014
                    configuration settings for which there is not an approved
                    deviation.
                    Ensure that the system managers provide quarterly
                    monitoring and reporting on account management
                    activities and audit log reviews to the OCIO Security
                    Program.




                                             B-1

SMITHSONIAN INSTITUTION         OFFICE OF THE INSPECTOR GENERAL



                                                 APPENDIX C
MANAGEMENT RESPONSE




                          C-1
SMITHSONIAN INSTITUTION           OFFICE OF THE INSPECTOR GENERAL

MANAGEMENT RESPONSE (CONTINUED)




                          C-2
SMITHSONIAN INSTITUTION           OFFICE OF THE INSPECTOR GENERAL

MANAGEMENT RESPONSE (CONTINUED)




                          C-3
SMITHSONIAN INSTITUTION           OFFICE OF THE INSPECTOR GENERAL



MANAGEMENT RESPONSE (CONTINUED)




                          C-4
SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL



                                                                  APPENDIX D

MAJOR CONTRIBUTORS TO THIS REPORT

Clifton Larson Allen LLP
Bruce Gallus, Supervisory Auditor
William Hoyt, Assistant Inspector General for Operations
Joseph Benham, Auditor




                                       D-1 

